                                                                 Issue Date
                                                                         March 14, 2012
                                                                 Audit Report Number
                                                                         2012-FW-1006




TO:        Charles S. Coulter
           Deputy Assistant Secretary for Single Family Housing, HU

           //signed//
FROM:      Gerald R. Kirkland
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: J&M Mortgage Brokers, Ltd., Houston, TX, Did Not Comply With HUD-FHA
           Loan Requirements in Underwriting 6 of 20 Loans


                                   HIGHLIGHTS

 What We Audited and Why

            We audited J&M Mortgage Brokers, Ltd., dba Mortgages USA, a Dallas, TX-
            based nonsupervised direct endorsement lender. We selected J&M because it had
            a high rate of defaults and claims within the first year. Our audit objectives were
            to determine whether J&M originated Federal Housing Administration (FHA)-
            insured single family mortgages in accordance with U. S. Department of Housing
            and Urban Development (HUD) regulations, procedures, and instructions and
            implemented a quality control plan that met HUD and FHA requirements.

 What We Found


            J&M did not originate 6 of 20 loans reviewed in accordance with HUD and FHA
            requirements. Of the six loans, five had significant underwriting deficiencies and
            did not qualify for FHA insurance, and one had minor deficiencies. As a result,
            J&M exposed HUD to unnecessary insurance risks totaling more than $327,000
            and caused HUD to incur losses of more than $65,000.
                 J&M violated the HUD and FHA requirements because it did not have adequate
                 controls in place to ensure that it understood and complied with those
                 requirements. Further, it lacked a compliant quality control plan and process,
                 which may have prevented it from detecting or correcting some of the errors.

    What We Recommend


                 We recommend that the Deputy Assistant Secretary for Single Family Housing
                 require J&M to (1) buy down one loan by $1,750 due to overinsurance, (2)
                 indemnify HUD for three loans with an estimated potential loss of $325,482, 1 (3)
                 reimburse the FHA insurance fund $65,559 for actual losses on one loan, and (4)
                 ensure that its quality control plan and loan origination practices comply with
                 HUD requirements. We also recommend that HUD refer J&M to the Mortgagee
                 Review Board for administrative actions for failure to implement a quality control
                 program in compliance with HUD requirements.

                 For each recommendation without a management decision, please respond and
                 provide status reports in accordance with HUD Handbook 2000.06, REV-4.
                 Please furnish us copies of any correspondence or directives issued because of the
                 audit.

    Auditee’s Response

                 We provided our discussion draft to J&M on February 10, 2012, and held the exit
                 conference on February 17, 2012. We requested a written response by
                 February 24, 2012. We extended the written response date at J&M’s request, and
                 J&M provided its written comments, along with supporting documents, on
                 February 29, 2012. J&M agreed with some conclusions and disagreed with
                 others. J&M provided explanations and documentation in its response to support
                 its position. We reviewed the explanations and documentation and determined
                 that they were not sufficient to justify changes to the report.

                 The complete text of the auditee’s response, along with our evaluation of that
                 response, can be found in appendix B of this report. The supporting documents
                 provided with J&M’s response is available in its entirety upon request.




1
     The amount is based on the estimated percentage of loss of 64 percent that HUD would incur when the FHA
     property is foreclosed upon and resold as supported by the HUD Single Family Acquired Asset Management
     System’s case management profit and loss by acquisition as of December 2011.

                                                       2
                             TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit
        Finding : J&M Did Not Originate 6 of 20 Loans Reviewed in Accordance With   5
                  HUD and FHA Requirements

Scope and Methodology                                                               13

Internal Controls                                                                   15

Appendixes
   A.   Schedule of Questioned Costs and Funds To Be Put to Better Use              16
   B.   Auditee Comments and OIG’s Evaluation                                       17
   C.   Summary Data for Loans Reviewed                                             26
   D.   Case Narratives                                                             27




                                             3
                        BACKGROUND AND OBJECTIVES

J&M Mortgage Brokers, Ltd., dba Mortgages USA, is a nonsupervised direct endorsement
lender, which was approved by the U. S. Department of Housing and Urban Development
(HUD) to originate Federal Housing Administration (FHA) mortgage loans on March 23, 2007.
J&M’s corporate headquarters is located at 4455 LBJ Freeway, Suite 1200, Dallas, TX.

The direct endorsement program simplified the process for obtaining FHA mortgage insurance
by allowing lenders to underwrite and close the mortgage loan without prior HUD review or
approval. Lenders are responsible for complying with all applicable HUD regulations and are
required to evaluate the borrower’s ability and willingness to repay the mortgage debt. Lenders
are protected against default by FHA’s Mutual Mortgage Insurance Fund, which is sustained by
borrower premiums. FHA’s mortgage insurance programs help low- and moderate-income
families become homeowners by lowering some of the costs of their mortgage loans. FHA
mortgage insurance also encourages lenders to approve mortgages for otherwise creditworthy
borrowers and projects that might not be able to meet conventional underwriting requirements by
protecting the lender against default. 2

According to HUD’s Neighborhood Watch system, 3 J&M originated 340 loans totaling $47.8
million in 2008. In 2009 and 2010, it originated 608 loans totaling $90.7 million and 294 loans
totaling $42.6 million, respectively. J&M’s overall default rate during our review period ranged
from 3.73 to 6.34 percent, while the national average default rate ranged between 2.43 and 4.9
percent during the same period.

J&M had one branch office in Plano, TX, in December 2010; however, it closed the branch
office after a few months. It did not have any other branch offices during the review period.
J&M did not service the loans it originated, rather it sold its loans to other companies.

Our audit objectives were to determine whether J&M originated FHA insured single family
mortgages in accordance with HUD and FHA regulations, procedures, and instructions and
implemented a quality control plan that met HUD and FHA requirements.




2
    HUD defines a default as the inability to make timely mortgage payments or otherwise comply with mortgage
    terms. A loan is considered in default when no payment has been made 30 days after the due date. Once a loan
    is in default, the lender can exercise legal rights defined in the contract to begin foreclosure proceedings.
3
    Neighborhood Watch is Web-based software that displays loan performance data for FHA-insured single-family
    loans. The system is designed to highlight exceptions so that potential problems are readily identifiable.

                                                       4
                                   RESULTS OF AUDIT

Finding: J&M Did Not Originate 6 of 20 Loans Reviewed in
Accordance With HUD and FHA Requirements
Six of 20 loans reviewed did not comply with HUD and FHA requirements. All six loans had
underwriting deficiencies. Five 4 of the six loans had significant deficiencies and should not have
been approved for FHA insurance, while the sixth loan 5 was qualified but was overinsured.
These conditions occurred because J&M did not have adequate controls in place to ensure that it
understood and complied with those requirements. Further, it lacked a compliant quality control
plan and process, which may have prevented it from detecting or correcting some of the errors.
As a result, J&M exposed HUD to unnecessary insurance risks totaling more than $327,000 and
caused HUD to incur losses of more than $65,000. 6



    J&M Did Not Comply With
    HUD and FHA Requirements


                Six of 20 home loans reviewed did not comply with HUD requirements because
                they contained one or more underwriting deficiencies.

                Specifically, J&M

                    •   Overinsured two loans,
                    •   Miscalculated income for one loan and used questionable income
                        documentation for another loan,
                    •   Did not properly resolve credit discrepancies for two loans,
                    •   Did not ensure that the borrowers had sufficient funds to close two loans,
                        and
                    •   Improperly handled documents for one loan.




4
     FHA case numbers 492-8348210, 492-8509134, 492-8352641, 493-8913880, and 493-9530796
5
     FHA case number 421-4564607
6
     See Appendix C for details on questioned costs

                                                   5
                  The table below shows a summary of the loan deficiencies. Appendix D contains
                  case narratives that provide additional details for each of the six deficient loans.

                  Summary of underwriting deficiencies
                                                  Incorrect
                                                      or         Unresolved      Unverified     Improperly
                                                  unverified        credit        funds to       handled
                   Case number    Overinsured      income       discrepancies       close       documents
                   492-8348210           X                            X
                   492-8509134                         X                                            X
                   421-4564607           X
                   492-8352641                         X              X              X
                   493-8913880                                        X
                   493-9530796                                                       X



                  J&M Overinsured Two Loans
                  J&M’s underwriters overinsured two loans. They overinsured FHA loan
                  492-8348210 by $9,193 and FHA loan 421-4564607 by $1,750. Overinsurance
                  alone did not make the loans ineligible for FHA insurance.

                  FHA loan 492-8348210 was for the purchase of a HUD real estate-owned
                  property 7 that J&M’s underwriter approved with a loan-to-value ratio of 108
                  percent. HUD limited such loans to 96.5 percent at that time. 8 The loan was
                  overinsured because J&M’s underwriter allowed the borrower to include closing
                  costs and prepaid expenses in the mortgage in violation of HUD’s rules. 9 The
                  loan-to-value ratio was shown on the loan transmittal and underwriting summary
                  form, which accompanied the loan and was signed by an underwriter. Therefore,
                  the underwriter should have been aware that the loan was insured for more than
                  100 percent. However, the underwriter either was not aware of HUD’s rule
                  prohibiting the inclusion of closing costs and prepaid expenses in the mortgage or
                  chose to ignore the rule and queried an investor company for confirmation about
                  the proper procedures for underwriting this loan. However, according to a current
                  underwriter, the investor’s guidance was incorrect, and the investor purchased the
                  overinsured loan.

                  J&M’s underwriter also calculated the loan-to-value ratio using an incorrect home
                  value. According to HUD’s requirements, 10 the lower appraised as-is value of
                  $70,100 should have been used, but the underwriter used the higher sales value of
                  $71,100. Therefore, the actual loan-to-value ratio should have been 113 percent.

7
     A HUD real estate-owned property is a one to four unit residential property HUD acquired by foreclosing on an
     FHA-insured mortgage. HUD is the property owner and offers it for sale to recover the loss on the foreclosure
     claim.
8
     HUD Handbook 4155.1, paragraph 2.A.2.a.
9
     HUD Handbook 4155.1, paragraph 2.A.2.c and Mortgagee Letter 00-27
10
     Mortgagee Letter 00-27

                                                        6
                  The borrower later refinanced this loan through J&M into a new FHA mortgage,
                  which was not overinsured.

                  FHA loan 421-4564607 was a refinanced loan for which the buyer obtained cash
                  from his equity in the home. The loan was closed with a loan-to-value ratio of
                  87.19 percent. HUD allows a maximum loan-to-value ratio of 85 percent for
                  cash-back refinance loans. 11 As a result of using the higher loan-to-value ratio,
                  the refinanced loan was overinsured by $1,750.

                  In both overinsured FHA loans, the underwriters should have been aware of loan-
                  to-value limitations. However, the underwriters were either not aware of or chose
                  to ignore the requirement and in at least one case, relied on investor guidance.

                  Underwriters Miscalculated Income for One Loan and Used Questionable
                  Income Documentation for Another Loan
                  J&M’s underwriters used unsupported bonus or incentive pay to determine
                  income for FHA loan 492-8509134 and questionable income documentation for
                  FHA loan 492-8352641.

                  For FHA loan 492-8509134, the underwriter incorrectly included bonus or
                  incentive pay that the borrower had previously received but that was not regular
                  and recurring. HUD Handbook 4155.1, paragraph 4.D.2.b, requires that for
                  overtime and bonus income to be used to qualify the borrower, the lender must
                  establish that the borrower has received such income for the past 2 years and that
                  the overtime and bonus income is likely to continue. The handbook allows
                  periods less than 2 years if the lender can justify and document the reason for
                  using the income to qualify the borrower.

                  The borrower had only worked for the employer for 1 year and supplied pay stubs
                  covering only 2 months. J&M obtained a statement from the employer that the
                  borrower could work as much overtime as he wanted; however, there was no
                  explanation or similar statement for the bonus or incentive pay. Therefore, the
                  bonus or incentive pay should not have been included in the income calculation.
                  Using the correct monthly income increased the borrower’s front-end ratio 12 from
                  30.9 to 41.9 percent and the back-end ratio 13 from 56 to 76.1 percent. Had the
                  correct income been entered into the automated underwriting system, the system
                  would probably have disapproved the loan due to the borrower’s large back-end
                  ratio. 14 All income entered into the automated underwriting system for risk
                  assessment purposes must meet FHA requirements for qualifying income. The

11
     HUD Handbook 4155.1, REV-5, paragraph 1-11B
12
     The front-end or mortgage payment-to-income ratio measures the borrower’s ability to pay the mortgage by
     comparing the borrower’s income to his or her expected payment for the mortgage.
13
     The back-end or total monthly debt-to-income ratio measures the borrower’s ability to pay the mortgage by
     comparing the borrower’s income to his or her mortgage payments, credit card payments, child support, and
     other debt payments.
14
     For loans underwritten by the automated underwriting system, combined with FHA’s Technology Open to
     Approved Lenders (TOTAL) Mortgage Scorecard, the system determines the acceptable credit variables.

                                                        7
                 lender is responsible for determining that the income meets FHA’s
                 requirements. 15

                 For FHA loan 492-8352641, the underwriter did not correctly verify that the
                 borrower had been employed at the time of the loan application and processing.
                 HUD rules required J&M 16 to obtain the borrower’s most recent pay stub;
                 however, J&M obtained and used a pay stub which could not be identified as the
                 borrower’s pay stub because it contained no name, address, or Social Security
                 number.

                 Because of the miscalculated income and questionable income documentation, the
                 two loans were not qualified for FHA insurance. HUD foreclosed upon and
                 resold FHA loan 492-8509134. This resulted in losses of $65,559 to HUD.

                 J&M Did Not Resolve Credit Discrepancies or Properly Process Loans
                 For three loans, J&M did not properly resolve credit discrepancies or take
                 additional steps to properly process loans when borrowers had substantial credit
                 discrepancies.

                 For FHA loan 493-8913880, J&M did not properly resolve credit discrepancies.
                 It did not obtain the borrower’s previous rental payment history as required and
                 did not require the borrower to explain in writing the collections shown on the
                 borrower’s credit report. 17

                 For FHA loan 492-8348210, the underwriter correctly determined and
                 documented that the borrower had an insufficient credit history. However, the
                 underwriter did not perform the additional required step of documenting that the
                 borrower had 2 months’ cash reserves. 18

                 J&M did not properly process FHA loan 492-8352641 because the underwriter
                 did not downgrade the loan and conduct a manual review. Although Technology
                 Open To Approved Lenders (TOTAL) Scorecard guidelines require an
                 underwriter to conduct a manual review when a borrower’s credit report reveals
                 that the borrower disputed credit accounts or public records, 19 the underwriter did
                 not downgrade the loan, and there was no indication in the file that the
                 underwriter reviewed the disputed collection accounts as required.

                 Because of the unresolved credit discrepancies and improper processing, the three
                 loans were not qualified for FHA insurance.



15
     FHA’s Technology Open To Approved Lenders (TOTAL) Mortgage Scorecard User Guide, page 5
16
     Documentation guidelines given on the TOTAL Scorecard feedback certificate from the automated
     underwriting system
17
     HUD Handbook 4155.1, REV-5, paragraphs 2-3A and C
18
     HUD Handbook 4155.1, paragraph 4.C.3.d
19
     FHA’s Technology Open To Approved Lenders (TOTAL) Mortgage Scorecard User Guide, page 24

                                                      8
                  Loans Lacked Sufficient Evidence of Funds To Close
                  For FHA loans 492-8352641 and 493-9530796, the underwriters did not ensure
                  that the borrowers had sufficient funds to close.

                  The underwriter gave the borrower for FHA loan 492-8352641 credit for lease
                  payments reportedly paid while living in the property as his downpayment for the
                  loan. According to HUD requirements, 20 both a rent-with-option-to-purchase
                  agreement and the appraiser’s estimate of market rent are required to determine
                  how much of the lease payments can be used as the borrower’s cash investment.
                  J&M did not obtain a rent-with-option-to-purchase agreement and did not require
                  the appraiser to estimate the fair market rent as required. According to
                  documentation in the FHA file, the underwriter gave the borrower credit for
                  $11,000 in rent; however, the underwriter only included evidence supporting that
                  the borrower paid $8,525. In addition, the underwriter did not deduct an amount
                  for fair market rent from the $8,525 as required. Only amounts paid in excess of
                  the fair market rent can be credited toward the downpayment.

                  For FHA loan 493-9530796, the underwriter did not verify the source of a large
                  increase in the borrower’s accounts before closing as required. 21 The borrower
                  needed $2,998 for closing and had $1,945 in a bank account before receiving a
                  $3,451 deposit from an unidentified source.

                  Because the funds for closing for the two loans were not properly supported, the
                  loans were not eligible for FHA insurance.

                  J&M Accepted Improperly Handled Documents
                  For FHA loan 492-8509134, the underwriter accepted improperly handled
                  documents to verify the borrower’s employment and income. HUD Handbook
                  4155.1, paragraph 1.B.1.f, prohibits lenders from accepting or using documents
                  relating to the credit, employment, or income of borrowers when those documents
                  are handled by or transmitted from or through interested third parties (for
                  example, real estate agents, builders, sellers) or by using their equipment.
                  Because this loan was qualified using improperly handled documents, it should
                  not have been underwritten for FHA insurance.

     Both J&M’s Quality Control
     Plan and Its Quality Control
     Process Were Inadequate


                  J&M Mortgage did not have a written quality control plan in place for
                  most of the audit period. Its quality control plan was revised as of
                  January 1, 2011; however, it was also generally noncompliant with FHA
                  requirements because it did not contain elements required by chapter 7 of

20
       HUD Handbook 4155.1, REV-5, paragraph 2-10N
21
       HUD Handbook 4155.1, REV-5, paragraph 5.2.b

                                                     9
                 HUD Handbook 4060.1. For example, it was silent on the requirements to
                 adequately train staff involved in the quality control process and document
                 how sample sizes and selections for review were to be determined. It also
                 did not require field reviews of appraisals on 10 percent of the loans
                 selected for review. 22

                 Further, J&M’s quality control process did not comply with HUD’s or its
                 own requirements. J&M did not perform quality control reviews in some
                 months in which a review was required and did not conduct its quality
                 control reviews within 90 days from the end of the month in which the
                 loan closed as required. 23 J&M’s quality control review reports also did
                 not state whether corrective actions were taken as required based on the
                 quality control findings. In addition, although J&M’s quality control plan
                 correctly required that all early payment default loans be reviewed, it did
                 not review any of the 12 early payment default loans that occurred during
                 our audit period. Without reviewing its defaulted loans, J&M had no
                 system in place to assess why the loans defaulted and correct problems in
                 its underwriting process, which may have contributed to the defaults.

                 In addition, J&M did not report a significant finding contained in its quality
                 control review to HUD as required. In one of its quality control reports, the
                 reviewer found errors, which she labeled as serious. HUD Handbook 4060.1,
                 REV-2, paragraph 7-3J, requires that findings of fraud or other serious violations
                 be immediately referred, in writing (along with any available supporting
                 documentation), to the director of HUD’s Quality Assurance Division in the HUD
                 Homeownership Center having jurisdiction (determined by the State where the
                 property is located). 24 In lieu of submitting a paper report, lenders must use the
                 “lender reporting” feature in the Neighborhood Watch Early Warning System.
                 During the audit period, J&M did not report any serious quality control findings
                 to HUD through its Neighborhood Watch system as required.

     J&M Did Not Have Proper
     Written Policies and
     Procedures

                 J&M did not have written policies and procedures regarding the origination and
                 processing of FHA-insured loans at the time we began the review. Staff
                 responsible for processing and underwriting FHA-insured loans primarily relied
                 on their own knowledge of HUD and FHA requirements, although one loan
                 processor told us that she followed a checklist. Other staff told us that they
                 received email updates regarding HUD and FHA changes from the current

22
   HUD Handbook 4060.1, REV-2, paragraphs 7-3C, 7-6C, and 7-6E(3)
23
   HUD Handbook 4060.1, REV-2, paragraph 7-6A
24
   HUD has four Homeownership Centers (HOCs) that handle many of its mortgage insurance operations,
   including monitoring the origination and servicing practices of HUD-approved single family mortgagees, for a
   designated geographic area.

                                                      10
                  underwriter, HUD, and investor mailing lists. J&M staff also relied upon
                  underwriting guidance from the investors buying the loans. For example, a staff
                  member expressed surprise that FHA loan 492-8348210 passed the investor’s
                  prepurchase audit and told us that if the loan had been improperly underwritten,
                  the investor would not have purchased it.

                  J&M had experienced a large turnover in management and staff since the six
                  questioned loans were underwritten, and the current underwriter was unable to
                  explain why the loans were not underwritten in compliance with HUD and FHA
                  regulations.

     Conclusion

                  J&M’s loan origination for 6 of 20 loans and its quality control practices did not
                  comply with HUD’s and FHA’s requirements. As a result, J&M originated five
                  loans that should not have been FHA insured and overinsured two loans including
                  one of the five that should not have been FHA insured. Further, its quality control
                  plan was not properly implemented and may have prevented it from detecting or
                  correcting the errors. As a result, J&M’s faulty loans caused HUD to suffer losses
                  totaling $65,559 for one loan and subjected HUD’s insurance fund to unnecessary
                  insurance risks totaling $327,232.

     Recommendations

             We recommend that the Deputy Secretary for Single Family Housing require J&M to

                  1A. Buy down $1,750 for one overinsured loan. 25

                  1B. Indemnify HUD for three insured loans 26 with unpaid principal balances of
                      $508,566 net of overinsurance thereby putting an estimated $325,482 to
                      better use based on the FHA insurance fund average loss rate of 64 percent
                      of the unpaid principal balances.

                  1C. Reimburse the FHA insurance fund $65,559 for losses incurred on one
                      loan. 27

                  1D. Implement a quality control plan and process and loan origination practices
                      that comply with HUD requirements and are adequate to consistently
                      identify and correct underwriting deficiencies in a timely manner and report
                      significant quality control findings.



25
      FHA case number 421-4564607
26
      FHA case numbers 492-8352641, 493-8913880, and 493-9530796
27
      FHA case number 492-8509134

                                                   11
1E. Ensure that its staff and loan correspondents are thoroughly trained
    regarding HUD regulations and procedures.

We also recommend that the Deputy Assistant Secretary for Single Family
Housing

1F. Refer J&M to the Mortgagee Review Board for consideration of
    administrative actions for failure to implement a quality control program in
    compliance with HUD requirements.




                                12
                             SCOPE AND METHODOLOGY

We performed audit work from May 25 through December 14, 2011. The audit period covered
April 1, 2009, through March 31, 2011. We performed our work at J&M’s corporate offices in
Dallas, TX, and our office in Houston, TX.

To accomplish our objectives, we

     •   Reviewed 20 FHA-insured loans that were originated by J&M during the audit period;
     •   Interviewed J&M officials, 28 loan officers, processors, and underwriters;
     •   Reviewed J&M financial records and independent audit reports;
     •   Reviewed public records and HUD’s Neighborhood Watch system;
     •   Reviewed applicable HUD regulations 29, requirements, and mortgagee letters; and
     •   Obtained profit and loss data from HUD’s Single Family Data Warehouse system.

We obtained a download of the FHA loans that J&M originated from April 1, 2009, through
March 31, 2011, from HUD’s Neighborhood Watch system. The download showed that J&M
originated 778 FHA-insured loans valued at $114.9 million. We did not evaluate the reliability
of HUD’s Neighborhood Watch system because we used the data for background purposes only.

We extracted the 29 loans which had defaulted within the first year of origination from the
database and sorted them by the number of payments made before the first 90-day delinquency
was reported. We selected the 20 loans with the lowest number of payments before the first 90-
day delinquency and reviewed them. The loans selected ranged from 1 to 10 payments and had
original mortgage amounts totaling over $2.8 million. The results of our detailed testing apply to
only those 20 loans and cannot be projected.

We performed detailed testing and reviewed the underwriting procedures for the 20 loans. We
reviewed documentation from the HUD Homeownership Center loan endorsement files and loan
files provided by J&M. Our testing and review included (1) analysis of borrowers’ income,
assets, and liabilities; (2) review of borrowers’ savings ability and credit history; (3) verification
of selected data on the underwriting worksheet and settlement statements; and (4) confirmation
of employment and gifts.

We also obtained and reviewed J&M’s quality control plan and the quality control review reports
and supporting documentation to determine the sufficiency and timeliness of the quality control
reviews on closed loans.

When loans had significant underwriting deficiencies that warranted indemnification, we
calculated the indemnification amount as 64 percent of the net unpaid mortgage balance.
28
     J&M appointed its acting chief financial officer to be our designated point of contact for policies and
     procedures and for obtaining quality control documents.
29
     Two versions of HUD Handbook 4155.1 were in effect during the audit. HUD Handbook 4155.1, REV-5 is a
     hardcopy version for loans originated prior to May 10, 2009, while HUD Handbook 4155.1 is a consolidated
     electronic version for loans originated on or after May 10, 2009.

                                                      13
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               14
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •   Policies and procedures intended to ensure that FHA-insured loans are
                   properly originated, underwritten, and closed.
               •   Policies and procedures intended to ensure that the quality control program is
                   an effective tool in reducing underwriting errors and noncompliance.

               We assessed the relevant controls identified above.

               A deficiency in internal controls exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency


               Based on our review, we believe that the following item is a significant deficiency:

               •   J&M did not have effective controls in place to ensure that FHA-insured loans
                   were originated, underwritten, and closed in accordance with HUD and FHA
                   requirements (finding).


                                                15
                                               APPENDIXES

Appendix A

                    SCHEDULE OF QUESTIONED COSTS
                   AND FUNDS TO BE PUT TO BETTER USE

                        Recommendation                 Ineligible 1/       Funds to be put
                               number                                      to better use 2/
                                          1A                                      $  1,750
                                          1B                                       325,482
                                          1C                  $65,559

                                     Totals                   $65,559             $327,232




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that the auditor
     believes are not allowable by law; contract; or Federal, State, or local policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be used more efficiently if
     an Office of Inspector General (OIG) recommendation is implemented. These amounts include reductions in
     outlays, deobligation of funds, withdrawal of interest, costs not incurred by implementing recommended
     improvements, avoidance of unnecessary expenditures noted in preaward reviews, and any other savings that
     are specifically identified. Implementation of recommendation 1A will reduce the risk to the insurance fund by
     the amount of overinsurance. Implementation of recommendation 1B to require J&M to indemnify HUD for
     three loans that were not originated in accordance with HUD-FHA requirements will reduce FHA’s risk of loss
     to the insurance fund. The amount reflects that, upon the sale of the mortgaged property, FHA’s average loss
     experience is about 64 percent of the unpaid principal balance. The 64 percent loss rate is based on HUD’s
     Single Family Acquired Asset Management System’s case management profit and loss by acquisition
     computation for the first quarter of fiscal year 2012 based on actual sales.

                                                         16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         17
Comment 1




            18
Comment 2




Comment 3




            19
Comment 4




Comment 5




            20
Comment 6




Comment 7




            21
Comment 8




            22
Comment 9




            23
                           OIG Evaluation of Auditee Comments

Comment 1: J&M acknowledged that one loan had been re-financed and agreed that a second
           loan was overinsured. J&M agreed to reimburse HUD for the overinsurance. We
           did not change the report.

Comment 2: J&M stated that the borrower’s effective income was expected to increase
           because he had a letter from his employer projecting that he would receive a
           promotion and an expected raise of $10 per hour by the beginning of 2010. We
           disagree because HUD Handbook 4155.1, paragraph 4.E.5.c prohibits using
           projected or hypothetical income to qualify potential borrowers unless the income
           is from a performance raise and is scheduled to begin within 60 days of loan
           closing. In this case, the projected wage increase was due to a possible promotion
           instead of a performance raise, and would take effect by the beginning of 2010
           which was 5 months after loan closing. We did not change the report.

Comment 3: J&M noted that the file contained prior period pay stubs which reflected the
           borrower’s name, address, and employer. We agree that there were some prior
           period pay stubs which exhibited the appropriate identifying information.
           However, the most recent paystub should not have been used because it could not
           be reliably attributed to the borrower without identifying information. Since this
           paystub should not have been used, J&M could not document the most recent full
           month’s earnings for the borrower as required. Further, J&M did not obtain a
           verbal verification of employment as required. We did not change this finding.

Comment 4: J&M stated that since the loan received an “accept” rating from the Technology
           Open to Approved Lenders (TOTAL) Scorecard, the credit resolution items cited
           in the finding were not required. We disagree. According to documentation in
           the file, this loan was downgraded to a “refer” rating and required to be manually
           underwritten. The loan was also shown as being manually underwritten in HUD’s
           Neighborhood Watch system. Under the rules for manually underwritten loans,
           the credit resolution items are required. We did not change the finding.

Comment 5: J&M stated that the TOTAL Scorecard User Guide allowed an exception to the
           requirement that the mortgage application be referred to a manual underwriter
           when the borrower disputed collection accounts or public records. J&M further
           stated that its underwriter’s signature on the Loan Transmittal form indicates that
           the underwriter reviewed the required documents. We disagree because the
           TOTAL Scorecard User Guide that was in effect at the time J&M closed this loan
           contained no exceptions. Therefore, the application should have been
           downgraded and referred to a DE underwriter to be manually underwritten. We
           did not change the report.

Comment 6: J&M’s response did not address HUD’s requirement that the underwriter verify a
           rent-to purchase option agreement exists and that an appraiser has given an
           estimate of fair market rent. We did not change the report.

                                              24
Comment 7: J&M’s response did not address the underwriting deficiency. We did not change
           the report.

Comment 8: J&M acknowledged that income documents were faxed using the real estate
           company’s fax machine. However, J&M stated that two additional paystubs from
           a third party’s fax machine confirmed the borrower’s hourly wages. J&M used
           the paystubs and W-2s transmitted through the real estate company to qualify the
           borrower for the loan, and their income calculations were based on these
           improperly handled paystubs.

              J&M stated that it had changed it policies and procedures to not allow borrowers'
              documents to be handled by or transmitted through interested third parties. We
              did not verify that J&M changed its policies and procedures to prohibit using such
              documents in the future and do not have an opinion on it. We did not change the
              report.

Comment 9: J&M stated that it has implemented a quality control plan which complies with
           HUD requirements, and has hired an independent company to perform its quality
           control reviews. We have not verified these changes and do not have an opinion
           on them. We did not change the report.




                                              25
Appendix C

                   SUMMARY DATA FOR LOANS REVIEWED 30

     Loan number   Original   Unpaid     Overinsured    Claims     Loss on    Net unpaid   64 percent of     Loan status
                   mortgage   balance     portion of     paid      property    principal      unpaid
                                          mortgage                   sale       balance      balance
     492-8348210    $70,576       N/A          $9,193       N/A         N/A          N/A           N/A     Refinanced into
                                                                                                           new FHA loan
     492-8509134    154,646       N/A           N/A     $161,810    $65,559         N/A            N/A     Foreclosed upon
                                                                                                           and resold
     421-4564607     70,970    $61,516         1,750        N/A        N/A         N/A            N/A      Delinquent
     492-8352641    202,514    193,925          N/A         N/A        N/A     $193,925       $124,112     Conveyed to
                                                                                                           insurer
     493-8913880    193,837    187,009          N/A         N/A        N/A      187,009         119,686    Chapter 13
                                                                                                           bankruptcy
     493-9530796    131,081    127,632          N/A         N/A        N/A      127,632         81,684     Current
     Totals        $823,624   $570,082     $10,943 31   $161,810    $65,559    $508,566       $325,482




30
       Loan information is based on the loan status as of November, 30, 2011.
31
       We did not claim the $9,193 in overinsurance for loan 492-8348210 because the loan was refinanced.

                                                            26
Appendix D

                                 CASE NARRATIVES

                     Case Narrative—Loan Number 492-8348210
Mortgage amount: $78,576
Date of loan closing: May 26, 2009
Status as of November 30, 2011: Terminated, refinanced (was 12 months delinquent)
Payments before first default reported: One
Payments before first 90-day delinquency reported: One
Underwriting deficiencies:
The underwriter did not
    • Verify that the borrower had 2 months’ cash reserves after determining that the borrower
        had insufficient credit.
    • Reject the closing costs and prepaid expenses from being included in the mortgage.
    • Ensure that the mortgage did not exceed the maximum loan-to-value ratio of 96.5
        percent.
    • Correctly calculate the actual loan-to-value ratio.

The underwriter did not verify that the borrower had 2 months’ cash reserves after determining
that the borrower had insufficient credit. Further, J&M caused HUD to overinsure the loan when
the underwriter (1) incorrectly included closing costs for a HUD real estate-owned property into
the mortgage and (2) used an incorrect value for the property. HUD Mortgagee Letter 00-27
prohibits including closing costs in the mortgage, except for those borrowers participating in the
Officer or Teacher Next Door programs. This borrower was not a participant in either program.
Further, Mortgagee Letter 00-27 requires using the lower of the as-is value or the sales price for
the property. The underwriter signed the form HUD-92900 showing a loan-to-value ratio of 108
percent, while the maximum allowable loan-to-value ratio was 96.5 percent. In addition, the
underwriter used the sales price of the home instead of the lower as-is value to calculate the loan-
to-value ratio. When the correct as-is value was used, the LTV ratio was 113 percent. As a
result of including the closing costs and using the wrong property value, HUD overinsured the
loan by $9,193. However, J&M later refinanced the loan with an appropriate loan-to-value ratio.




                                                27
                     Case Narrative—Loan Number 492-8509134
Mortgage amount: $154,646
Date of loan closing: July 31, 2009
Status as of November 30, 2011: Title conveyed to insurer. Claims paid totaled $161,810.
HUD sold the property on October 5, 2010, for $96,251. The total loss to HUD was $65,559.
Payments before first default reported: Zero
Payments before first 90-day delinquency reported: Two
Underwriting deficiencies:
The underwriter did not
    • Disallow unsupported bonus or incentive pay from being included in borrower’s income
        calculation.
    • Reject employment and income verifications handled by interested third parties.

The underwriter incorrectly included bonus or incentive pay that had been received on past pay
stubs but was not regular and recurring. HUD Handbook 4155.1, paragraph 4.D.2.b, requires
that for overtime and bonus income to be used to qualify the borrower, the lender must establish
that the borrower had received such income for the past 2 years and that it was likely to continue.
The underwriter did not obtain an explanation or verification of the incentive pay. As a result of
including the unsupported incentive pay, the borrower’s income was overstated, and the
automated underwriting system did not have accurate information on which to base its risk
rating. The borrower’s mortgage payment-to-income and fixed payment-to-income ratios should
have been 41.9 and 76.1 percent, respectively, instead of the 30.9 and 56 percent that J&M
entered into the automated underwriting system. The reason reported in HUD’s Neighborhood
Watch system for the payment delinquencies was excessive obligations.

The underwriter also improperly accepted employment and income verifications, which were
transmitted from or through the fax machine of one of the real estate companies that was a party
to the sales transaction. This is a violation of HUD Handbook 4155.1, paragraph 1.B.1.f, which
prohibits lenders from accepting or using documents relating to the credit, employment, or
income of borrowers that are handled by or transmitted from or through interested third parties
(for example, real estate agents, builders, sellers) or by using their equipment.




                                                28
                    Case Narrative—Loan Number 421-4564607
Mortgage amount: $70,970
Date of loan closing: March 30, 2009
Status as of November 30, 2011: 1 month past due
Payments before first default reported: One
Payments before first 90-day delinquency reported: Three
Underwriting deficiencies:
The underwriter did not
    • Ensure that the mortgage did not exceed the correct loan-to-value ratio of 85 percent.

The underwriter incorrectly allowed the cash-out refinanced loan to exceed an 85 percent loan-
to-value ratio in violation of HUD Handbook 4155.1, REV-5, paragraph 1-11B. The underwriter
signed a form HUD-92900 LT showing a loan-to-value ratio of 87.19 percent. As a result, the
loan was overinsured by $1,750.




                                               29
                     Case Narrative—Loan Number 492-8352641
Mortgage amount: $202,514
Date of loan closing: March 14, 2009
Status as of November 30, 2011: Property conveyed to insurer. No claim information was
available
Payments before first default reported: One
Payments before first 90-day delinquency reported: Three
Underwriting deficiencies:
The underwriter did not
    • Correctly verify the borrower’s current employment.
    • Downgrade the loan which received an “accept” rating from the automated underwriting
        system to a “refer” rating due to the many disputed collection accounts on the borrower’s
        credit report.
    • Enter the correct appraised value into the automated underwriting system.
    • Obtain a rent-with-option-to-purchase agreement between the seller and borrower as
        required.
    • Verify the downpayment funds.
    • Obtain a market value appraisal as required for lease-to-own transactions.

The underwriter incorrectly used questionable documentation to verify the borrower’s current
employment. One pay stub obtained was a partial stub and did not contain the borrower’s name,
address, Social Security number, or any other identifying information. In addition, although the
loan received an accept rating from the automated underwriting system, the TOTAL Scorecard
guidelines required that if the borrower had disputed any credit accounts or public records on the
credit report, the application should be referred to an underwriter for a manual review. There
was no indication that the underwriter reviewed these accounts as required. Further, J&M
entered an incorrect appraised property value of $207,000 instead of the correct value of
$210,000 into the automated underwriting system and on the form HUD-92900 LT, although this
was an immaterial error that did not make a difference in whether the loan would have been
approved.

The underwriter also failed to require that a rent-with-option-to-purchase agreement be provided.
HUD Handbook 4155.1, REV-5, paragraph 2-10N, requires that when rent credit is given, both
the rent-with-option-to-purchase agreement and the appraiser’s estimate of market rent must be
included in the endorsement package. Only the amount of the rental payments that exceed the
appraiser’s estimate of fair market rent should be considered as the borrower’s cash investment
or downpayment. The file contained a statement from the seller, which was attached to the sales
contract, stating that the borrower was being given credit for $11,000 in rent paid during 6
months while the borrower lived in the property. However, the file contained support for only
$8,525 of the rental payments, and there was no determination of the estimated fair market rent.
Yet the underwriter incorrectly gave the borrower credit for the full $11,000 in reported rental
payments. Further, an analysis of the support for the $8,525 in reported rental payments revealed
that the payments did not follow a regular pattern that would be associated with a rental
agreement. The borrower made a large payment in February 2008 to cover a little more than 2
months’ rent and did not make any further rental payments until September 2008.

                                               30
                    Case Narrative—Loan Number 493-8913880
Mortgage amount: $193,837
Date of loan closing: April 2, 2009
Status as of November 30, 2011: 18 months delinquent (Chapter 13 bankruptcy)
Payments before first default reported: Four
Payments before first 90-day delinquency reported: Six
Underwriting deficiencies:
The underwriter did not
    • Obtain previous rental payment history when required.
    • Document the compensating factors used to support the loan approval with qualifying
        ratios 19 points in excess of the approved HUD ratios.
    • Did not obtain an explanation from the borrower for two collections on the credit report.

The underwriter did not require the borrower to explain two collections shown on his credit
report as required. HUD Handbook 4155.1 REV-5, section 2-3, requires that the lender obtain a
sufficient written explanation from the borrower regarding collections. Further, paragraph 2-3A
requires that the lender determine the borrower’s payment history of housing obligations for the
most recent 12-month period.

The underwriter also did not record on the “remarks” section of the form HUD-92900-WS and
HUD-92900-PUR the compensating factor(s) used to support the loan approval since the
borrower’s debt ratio exceeded the approved maximum ratio of 31 and 43 percent. The
borrower’s ratios were 41 and 62 percent.




                                               31
                    Case Narrative—Loan Number 493-9530796
Mortgage amount: $131,081
Date of loan closing: March 4, 2010
Status as of November 30, 2011: Current
Payments before first default reported: Two
Payments before first 90-day delinquency reported: Six
Underwriting deficiencies:
The underwriter did not
    • Verify the source of funds for a large deposit to the borrower’s account before closing.

There was a large unexplained increase in the borrower’s bank accounts that exceeded 2 percent
of the sales price. The borrower’s statement of accounts as of January 27, 2010, showed a total
ending balance of $1,944.53. However, the borrower’s bank statement for the period ending
February 26, 2010, just before the loan closing on March 4, 2010, showed an ending balance of
$5,485. The loan file contained only the final summary page with ending balances for the period
ending February 26, 2010, and did not contain a full statement showing detailed transactions for
the month. HUD Handbook 4155.1, paragraph 5.2.b, requires the lender to obtain a credible
explanation and documentation of the source of funds when there is a large increase in the
borrower’s accounts. The underwriter did not obtain an explanation of the increase or
documentation of the source of the increase.




                                               32
